<html>
<title> - FOOD, NUTRITION AND CHILD HUNGER</title>
<body><pre>[Senate Hearing 106-946]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-946

                    FOOD, NUTRITION AND CHILD HUNGER

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     MARCH 16, 2000--GREEN BAY, WI

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
63-944 DTP                  WASHINGTON : 2001
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




                     deg.COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

  Subcommittee on Agriculture, Rural Development, and Related Agencies

                  THAD COCHRAN, Mississippi, Chairman
ARLEN SPECTER, Pennsylvania          HERB KOHL, Wisconsin
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
SLADE GORTON, Washington             BYRON L. DORGAN, North Dakota
MITCH McCONNELL, Kentucky            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                RICHARD J. DURBIN, Illinois
TED STEVENS, Alaska
  (ex officio)
                           Professional Staff

                           Rebecca M. Davies
                        Martha Scott Poindexter
                              Hunt Shipman
                       Galen Fountain (Minority)

                         Administrative Support

                               Les Spivey
                   Carole Geagley (Minority)<greek-l>




                           deg.C O N T E N T S

                              ----------                              
                                                                   Page

Statement of Tom Joynt, Superintendent, Nicolet Elementary 
  School, Green Bay, WI..........................................     1
Opening statement of Hon. Herbert Kohl...........................     1
Statement of Ann Laundrie, teacher, Nicolet Elementary School....     3
Statement of Renee Beauchamp, School Food Service Association....     4
Statement of Jim Hogensen, Cornerstone Family Church.............     6
Statement of Carl Metz, student..................................     8
Statement of Sally Paul, student.................................     8
Statement of Kevin Francis, student..............................     8
Statement of Karen Early, Nutrition Coordinator, Brown County 
  Extension, University of Wisconsin.............................     9
    Prepared statement...........................................    12
Brown County Food Security Initiative............................    13
Statement of Shirley Watkins, Under Secretary for Food, 
  Nutrition, and Consumer Services, Office of the Secretary, 
  Department of Agriculture......................................    13
Introduction of witnesses........................................    13
Nutrition assistance programs....................................    14
Mission and purpose..............................................    15
Budget proposal..................................................    15
Food Stamp Program...............................................    16
Child nutrition programs.........................................    16
Prepared statement of Shirley R. Watkins.........................    17
Biographical sketch of Shirley Watkins...........................    17
U.S. Department of Agriculture Food and Nutrition Service 
  Programs.......................................................    18
USDA Nutrition Program Facts.....................................    19
School Breakfast Program.........................................    19
The Facts........................................................    21
The Research.....................................................    21
Afterschool Snacks in the Child and Adult Care Food Program......    22
Statement of Richard Mortenson, Wisconsin State Department of 
  Public Instruction.............................................    22
Statement of Brett Bicoy, Brown County Community Foundation......    25
Statement of Nancy Armbrust, Director, Government Affairs, 
  Schreiber Foods................................................    27
Statement of Donna Freeman, Cofounder and Resource Developer, 
  Fort Howard/Jefferson Resource Center..........................    29
Statement of Peggy West, Oshkosh School District.................    30
Statement of Cathy Huntowski, Brown County Food and Hunger 
  Network........................................................    30
Statement of Paul VanRyzen, University of Wisconsin Extension....    31
Statement of John Pinkart, Nutrition Coordinator, Oconto and 
  Marinette Counties.............................................    32
Statement of Yvonne Roulhac Horton, Cooperative Extension, 
  University of Wisconsin Extension.........................32<greek-l>

                               (iii) deg.

 
                    FOOD, NUTRITION AND CHILD HUNGER

                              ----------                              


                        THURSDAY, MARCH 16, 2000

                           U.S. Senate,    
         Subcommittee on Agriculture, Rural
                 Development, and Related Agencies,
                               Committee on Appropriations,
                                                     Green Bay, WI.
    The subcommittee met at 12 noon, in the library of Nicolet 
Elementary School, Green Bay, WI, Hon. Herbert Kohl, presiding.
    Present: Senator Kohl.
STATEMENT OF TOM JOYNT, SUPERINTENDENT, NICOLET 
            ELEMENTARY SCHOOL, GREEN BAY, WI


                 OPENING STATEMENT OF HON. HERBERT KOHL


    Senator Kohl. Well, we thank you all for coming to this 
meeting here today. And as we get started, I would like to ask 
Superintendent Tom Joynt to offer his welcome and say a few 
words. Tom?
    Mr. Joynt. Well, thank you. Thank you all for coming. We 
never realized the lunch program at Nicolet was so popular.
    And some of us who ate with the kids, we do understand that 
the Pizza Hut pizzas are a high demand. I won't tell you some 
of the other comments, but Pizza Hut pizzas are right on.
    I would just like to introduce a couple of people here, and 
Jean Marsh and Judy DeCleene are two of our board members.
    One of the things, in addition to having a good lunch 
program, we have wonderful schools, and I think those of you 
who are in the area know how generous our community is in 
supporting schools of high quality. So this school was recently 
remodeled and expanded with a city park site added and we're 
very proud of it. We're also very proud of the fact--and just 
putting in a little political plug--that the Green Bay 
community passed the third highest referendum in the history of 
the state, had the largest plurality, and I share that with you 
because that shows you that our community really cares a lot 
about our youth and about education. So we have the Packers, 
but we have our public schools and we're very proud of them.
    So the other thing I just wanted to share and we--the 
Senator is a very big advocate of education and we're happy 
about that. We also--just the whole idea of nutrition and 
giving an educator a chance to talk and you have to throw out 
names, but one of them I would just share with you is there's a 
very famous philosopher/educator, his name is Abraham Maslow 
and what he talks about is that if you're going to have people 
learn, you have to start off with their basic needs. And among 
those basic needs are sleeping and a secure place to be, and 
the other is food. So we may say well, the lunch program, what 
is--it's just an add-on. Really, nutrition for all students is 
a key because we can't expect that students would learn without 
having proper nutrition. And so this is a very appropriate 
topic to talk about in a school.
    So again, welcome all of you, and again, we're very happy 
that you can be in Green Bay schools because we have some of 
the best. Thank you.
    Senator Kohl. Thanks, Tom. And welcome to all of you and we 
thank you for coming here today, particularly here in Green 
Bay, which is a perfect place to hold a hearing on the anomaly 
of hunger in an increasingly wealthy America.
    We're here today in one of the most beautiful and livable 
cities in our country, located in one of the most prosperous 
and successful states in the nation. In Wisconsin, the economy 
is booming, unemployment is at historic lows, welfare and food 
stamp rolls are dropping; and yet we will hear today that area 
food banks, community kitchens, schools, shelters and churches 
are seeing an unprecedented increase in hungry people, 
especially hungry children. We're not here just to talk; as one 
poet said, ``The belly has no ears, nor is it to be filled with 
just fair words.'' We won't feed one child with all of our fair 
words here today.
    And I and you would be disappointed and ill-served if 
today's event was just a chance for some of us to give a 
speech. Instead I want to tell you briefly what we are going to 
do to address the concerns that you have come today to raise.
    We are committing to you today to complete this year a 
Wisconsin Focus Square Meal Agenda. It is a plan designed to 
bring to communities like Green Bay more food and resources to 
feed the hungry and to bring children everywhere more 
opportunities to get a decent meal, therefore principles to our 
plan:
    Number 1, we will work to pass legislation to increase the 
participation in the programs that provide hot lunches to low-
income small children in childcare centers and family daycare 
homes.
    Number 2, we will work to pass legislation to authorize and 
provide funding for a program giving incentives to schools to 
start a school breakfast program. Wisconsin unfortunately is 
last in the nation in provision of a healthy breakfast to its 
hungry students and we are going to turn that figure around.
    Number 3, we will work to expand our current after-school 
feeding programs by encouraging sponsors to serve snacks for 
children between the ages of 13 and 18, and provide 
authorization to provide meals for that age group as well.
    And number 4, current law keeps Wisconsin from 
participating in the Commodity Supplemental Food Program which 
is a program that provides supplemental food to women, infants, 
children and the elderly. We will work to change that law, 
bring Wisconsin into the program, and fight for more resources 
to get this surplus food into our communities.
    So we thank all of you from Green Bay, other parts of 
Wisconsin and Washington who have come here to talk about 
hunger today.
    I promise to keep our meeting here brief so we can all get 
back to the work we do and need to do to make sure every child 
in Wisconsin starts the day well fed and ready to learn.
STATEMENT OF ANN LAUNDRIE, TEACHER, NICOLET ELEMENTARY 
            SCHOOL
    Senator Kohl. We have a panel here to start today, and on 
that panel we have Renee Beauchamp who is a school food 
representative from the School Food Service Association; Anne 
Laundrie, who's a teacher here at Nicolet; Jim Hogensen, from 
the Cornerstone Family Church; and Karen Early who's a Brown 
County Task Force on Hunger member.
    Anne, would you like to start?
    Ms. Early. Where do you want me?
    Ms. Laundrie. Well, first of all, I feel that the food that 
we feed our children should be nourishing; I think it should be 
good for their bodies and the only real foods I feel are whole 
foods or natural foods or foods are to be minimally processed. 
And by feeding our kids junk foods, I don't think we are really 
helping the problem. That children eat is important, but what 
they are eating I think can greatly affect how they behave in 
school, how they learn, how they process information, how they 
retain information, and I have noticed in my classroom over the 
years that the children seem to be basically, you know, eating; 
they are coming to school having had a breakfast, but it's not 
always the best food. A lot of children have hyperactive 
tendencies because of the high sugar content in their food, 
high fat content, white sugar, white flour, and I think a lot 
of the teachers, too, are coming to school that way. So what I 
really would like to stress is that the more people--the more 
food people eat is not necessarily the better, that all the 
starchy and fatty foods, in an educational institution 
especially, is just not warranted. And using the cheapest 
ingredients, as those that I mentioned, is economical, but it's 
not advantageous to the health of our children.
    And I'm wondering, too, if the quality of the breakfast 
that we are now receiving and the lunch foods that we are now 
receiving are going to improve in quality.
    I know I speak for many teachers at this school that do not 
look favorably on the quality of the foods their--that we are 
feeding to our children, and I think we must use wisdom and 
work together to provide foods that are not made from refined 
surplus foods or from manufactured items and prepackaged.
    As noble as our intentions may be, I also would hesitate to 
interfere with parental authority and responsibility in feeding 
our children. And I know our parents do a very good job, 
although, you know, a lot of people are not nutritionally 
educated, as I was not when I first started teaching; I came to 
school eating Pop Tarts. And so for the last 20 some years, I 
have really done a lot of educational nutritional research; I'm 
a very big advocate of educating our parents and our children 
as to proper foods, and if we do have a breakfast and lunch 
program at our school, I would like to see it improved in 
quality.
    Senator Kohl. Thank you. All right. Let's continue with 
Renee who's a School Food Service representative.
STATEMENT OF RENEE BEAUCHAMP, SCHOOL FOOD SERVICE 
            ASSOCIATION
    Ms. Beauchamp. Good afternoon. My name is Renee Schlaughten 
Beauchamp and I am the president of the Wisconsin School 
Service Association. I'm also the director of School Nutrition 
Programs at Sun Prairie Area School District.
    Thank you for the opportunity to be here today. Today I'd 
like to address the five--the four top barriers child 
nutritional professionals see in preventing childhood hunger in 
Wisconsin.
    Nearly 70,000 children under age 12 are hungry. Another 
184,000 Wisconsin children are at risk for not having enough 
food to eat.
    While hunger in Wisconsin is not as visible as it is in 
third world countries, hunger does exist. State statistics show 
that 36 percent of children in Wisconsin served school lunches 
qualify for free or reduced lunches. The importance of child 
nutrition and its effect on educational performance is becoming 
well documented through increasing scientific evidence.
    In 1998, Massachusetts General Hospital and Harvard Medical 
School released results of a study confirming the benefits of 
breakfast. Among the benefits are: A significant increase in 
mathematic grades, behavior, better behavior, less anxiety, 
decrease in tardiness and disciplinary incidents and less 
visits to the school nurse.
    Studies have found similar results for the school lunch 
program which is more widely incorporated into our schools 
compared to the breakfast program.
    The first barrier is lack of breakfast programs. Child 
nutritional professionals see hungry children coming to school 
every day. During testing weeks, we are often asked to provide 
breakfast for students in an effort to increase test scores as 
many students are coming to school without breakfast. Clearly 
the education professionals are aware of the importance of 
breakfast, but are concerned that in Wisconsin our breakfast 
programs are losing two cents for every meal we serve. 
Breakfast is not viewed as or included in the educational day. 
Many people consider it a service just to parents; the 
perception that the breakfast program is a welfare program and 
is just for needy children; also that breakfast programs 
possibly interfere with bus and school schedules.
    The second barrier is non-nutritive foods. In Wisconsin, 
our children are consuming twice as much soda as milk. Imagine, 
even in Wisconsin this is happening. Even though the national 
school breakfast and lunch programs require milk to be offered 
every day, milk consumption has decreased. Many school 
districts have experienced the soda wars that compromise the 
nutritional integrity of our program. School districts are 
offering rewards--are offered rewards such as scoreboards, 
athletic uniforms and just plain cash to exchange for a vending 
machine to be positioned in their school.
    In Holman, Wisconsin the high school was asked to 
discontinue the breakfast program so that a student 
organization could sell concessions to raise money.
    Our schools should be setting the example, not encouraging 
unhealthy lifestyles. Therefore, we believe the Secretary of 
Agriculture should have the authority to regulate the sale of 
all foods throughout the entire school until the end of the 
school day.
    The third barrier that we see is eligibility categories. 
The new Welfare Reform Laws in Wisconsin have had a great 
impact on those families eligible for free and reduced meals. 
As these families find low-paying jobs, they become ineligible 
for school meals. We feel these are the families that need 
these meals the most. These families can no longer afford to 
participate in our programs and are embarrassed about applying 
for the meal benefits. They are becoming more and more 
dependent on emergency food supplies and are sending their 
children to school with little or no food.
    A recent OIG study shows that many parents are lying on 
their applications about their income. During verification, we 
find that many people make more money than they say. Processing 
and verifying the applications for meal benefits is a paperwork 
nightmare. The continued use of the three-tiered eligibility 
category compounds this problem. Monies used to process and 
verify applications would be better spent in providing 
nutritious meals to students.
    The fourth barrier we see is lack of nutrition education. 
Childhood hunger doesn't only mean hungry children, it can 
refer to under-nutrition or poor nutrition; it means they are 
not getting the proper nutrients for proper growth and 
development.
    Our children are exposed daily to non-nutritive foods that 
compromise their health. Parents are looking for the quick 
snack to appease their children during their hectic schedules, 
and nutrition is not always a top concern.
    Right now the lunch period has been cut so drastically in 
schools that children are choosing not to eat in order to get 
out to recess faster. We feel that child nutrition programs 
need to be considered part of a child's learning day. We 
believe schools should take the lead and set the example. 
Breakfast and lunch programs are great learning tools for 
teaching good nutrition; however, regulations have become 
increasingly complex and unrealistic. Federal funds that could 
be used at the State level for nutrition education are being 
utilized to enforce these complex regulations.
    State agency consultants are spending valuable time in 
schools, reviewing food labels, determining the sodium content 
of such items as ketchup, rather than providing schools with 
technical assistance.
    We realize there needs to be program accountability, but 
there should be more realistic balance between compliance and 
nutrition services to children. Regulations should enhance 
child nutrition, not impair it.
    Since 1976 there has been a decline in nutrition education 
funding. School districts are lacking an educational 
environment in which nutrition education is a priority or is 
available to students in classroom instruction.
    Teachers are disinclined to have classroom presentations 
due to overextended curriculum, lack of interest in the topic, 
lack of updated materials and lack of respect for the food 
service program.
    What these schools don't understand is that school food 
programs can support and expand nutritional education by 
providing a learning laboratory where students observe and 
practice good eating habits.
    Adequate funding for nutrition education at the local level 
would allow school districts to incorporate nutrition 
throughout the day.
    USDA's team nutrition information has provided districts 
with a great deal of information; however, without funding at 
the local level, these resources tend to sit on shelves unused 
due to limited resources of time and money.
    In closing, the Wisconsin School Food Service Association 
believes that it's imperative that our school food service 
programs keep pace with societal, cultural and educational 
trends. With today's lifestyles, school lunch and school 
breakfast programs play an increasingly vital role. Good 
nutrition helps children get the most out of their education. 
We believe the nutrition component should go hand in hand with 
the education component. Thank you.
    Senator Kohl. Thank you, Renee. When we finish the 
statements from the panelists, we're going to open this up to 
questions and thoughts and comments from you all.
STATEMENT OF JIM HOGENSEN, CORNERSTONE FAMILY CHURCH
    Senator Kohl. We now have Jim Hogensen who is from the 
Cornerstone Family Church.
    Mr. Hogenson. I'd like to thank my wife for being here. She 
was supposed to be the panelist and she had an appointment that 
she couldn't get out of. So thank you, Linda.
    My wife and I started a ministry that we call Manna for 
Life, and we started it approximately 4 years ago, which is 
about a half a year before I retired. I was a jail inspector 
for the Wisconsin Department of Corrections for 21 of my 36 
years that I worked for the state. And during that period of 
time, I got to meet many people in and out of jail, I served on 
many different committees that would--probably had nothing to 
do with jail inspection, and I got to see a need that there 
were a lot of needy people out there, there were poor people, 
there were homeless people. And it--just something was placed 
upon my heart that when I retired, instead of building decks 
and remodeling homes and going to Florida in the wintertime, 
that perhaps something could be done. So my wife and I started 
the ministry and we started very small just by collecting 
blankets and food and things like that within our home. And 
shortly after we did that, we started to attend Cornerstone 
Family Church and we spoke to our pastors about our heart and 
what we wanted to do and so we partnered with them and we used 
their tax exempt status and we also fall under their insurance 
program.
    Within a very short period of time we were told that our 
ministry had become self-supporting, and so we started a thrift 
store, which in turn the profits from the thrift store go into 
our food pantry. Within 1 year period of time, we grew so fast 
that the very small building we were in on Bodart Street in 
Green Bay, we just outgrew, we rented a little warehouse space, 
we outgrew that; and the good Lord just sent to us a building 
that was close by right across from Camera Corner in Green Bay 
that we have approximately 8,000 or 9,000 square feet there. 
And we're now out of room and probably looking for a bigger 
building.
    But we were able to expand our food pantry, which was one 
of our biggest concerns. We provide clothing for people at a 
very reasonable rate and also provide food for those that are 
in need. We buy all our food at Second Harvest in Omro or 
Milwaukee where we can purchase food for 14 cents a pound.
    A good example of what we buy is if you purchase a large 
box of Post Raisin Nut Bran cereal in the store, it's close to 
$4, and we pay 42 cents per unit for that.
    We buy all kinds of food through them: We buy meat, 
turkeys, hams, hamburger, pizzas and other frozen type foods; 
commodities, we get cheese, we get canned foods, we get soup, 
and we provide this free of charge to people that come to our 
store.
    We have not yet set any geographic location. We originally 
went to the downtown area to serve the downtown people and the 
people in the near north side of Green Bay. That's where the 
vast majority of our people come from. There is a high-rise 
low-income place close by. We have a boarding house that has 19 
men and they have no way of cooking in there except for 
microwaves; they have very small, I guess, college-dorm type 
refrigerators. And so what we do is we kind of specialize in 
the kinds of foods that we can deal with that's easy for them.
    We have about 21 homeless people that come into our food 
pantry. Anyone that comes, that signs up for our food pantry 
that meets the eligibility, they can come twice a month. We 
have food pantry four times a month, they are allowed to come 
twice a month.
    And I believe June of 1999 we served 42 families; February 
of 2000 we are serving 185 families; we are getting new 
applicants at the rate of approximately 12 to 15 new families a 
month. Now, family could be two persons. I think the largest 
family that we serve is 10.
    We chose to do this on our own; Linda and I get nothing out 
of it. We have to--I have a pickup truck. We had to purchase a 
second pickup truck in order to pick up food; the ministry 
supplies us with gas money. There are no wages involved to 
anyone. Most of the people that work for us are volunteers, 
however we do get some people out of the Community Corrections 
Employment Program and they are paid minimal wage by them. And 
we also get one person out of the Bay Area Agency on Aging.
    We have a number of volunteers that come to us and they 
generally stay for short periods of time because it's a whole 
lot of work for nothing.
    My wife is our--my cherished volunteer and she has the 
strongest work ethic of any human being I've ever known in my 
life, and I don't even try and keep up to her; I just do what 
is my portion of the job. I go out and I talk to people. For 
example, I'm dealing with WG&R right now to see if they have--
get any used furniture in trade. Our building expenses have 
gotten much larger since we moved to a new place, and if we had 
larger furniture and stuff like that, we would get more money.
    Virtually all of our profits, after we pay for our 
expenses, go into our food program. And our program is just--
it's getting larger all the time. And I mentioned earlier we 
have an independent board of directors, and I'm sure that there 
are going to be some geographic locations that we're going to 
have to adhere to, however, when you start to help people and 
people find out about your agency, they come to you. We don't 
doublecheck with any other agencies to see if they are going 
there as well unless we have reason to believe that. For 
example, we found someone that was selling food for alcohol. We 
feel that that is not our job to judge; however we just don't 
wish to give the people that are double dipping and so we--
whenever we do have questions about that, we do look into it.
    We firmly believe that we are doing what is the right thing 
to do. We hope that many other people would consider doing the 
same thing, whether they connect with their church, they do it 
independently. In the 36 years I worked for the State, I am 
firmly convinced that government cannot meet everyone's needs.
    I feel that there are people that have made a lot of money 
in their lifetime and if they would choose to share some of 
that with agencies such as ours or their church or other 
places, that we could take care of the needs of the people. 
Thank you.
    Senator Kohl. Thank you very much, Jim. Before we hear from 
Karen, I'd like to ask our three students to step up and speak 
to us. We have Carl Metz, Sally Paul and Kevin Francis. So why 
don't--Sally, why don't you speak first. You can speak into the 
microphone and say anything you wish. After that we'll ask for 
Carl and then Kevin.
    Go ahead, Sally.
STATEMENTS OF:
        CARL METZ, STUDENT
        SALLY PAUL, STUDENT
        KEVIN FRANCIS, STUDENT
    Ms. Paul. I'd like as--I think it's important to have a 
good breakfast because it is important that you get it and you 
can learn better. Because if you take your test or something, 
you're more concentrating on it and if you're hungry, you can't 
concentrate on the test. So if you take a test and--it's very 
important that--to eat breakfast first so get a more steady on 
your test than you are on how hungry you are. Thank you.
    Senator Kohl. That's a good statement.
    Mr. Metz. I think it's important to eat breakfast because 
that whenever you go to school, sometimes you'll go ``Oh, my 
stomach hurts because I didn't eat this morning.'' Then you'll 
go down to the nurse's office and say, ``Oh, I don't feel very 
good.'' So then you should eat breakfast. And that--I think 
that helps.
    Senator Kohl. Thank you, Carl.
    Mr. Francis. I say you should--I say you should eat 
breakfast because it's very important for your body. And 
whenever you go to school, you have to learn well, and if you 
don't pass a test, you're probably won't get--might not pass 
your test--your grade. So if you eat junk food, then you act 
more hyperactive. That's what I have to say.
    Senator Kohl. That's very good. So you think everybody 
should eat a good breakfast, huh?
    Mr. Metz. And lunch.
    Senator Kohl. And do you get your breakfast at school or at 
home or where?
    Mr. Francis. School.
    Mr. Metz. Home.
    Senator Kohl. And what about you, Sally?
    Ms. Paul. I eat it at home.
    Senator Kohl. You eat at home?
    Mr. Metz. I get it at home.
    Senator Kohl. Do you get some snacks at school?
    Students. Yes.
    Senator Kohl. And lunch do you get at school?
    Students. Yeah.
    Senator Kohl. Is this a good school?
    Students. Yes.
    Senator Kohl. Do you like this school?
    Students. Yes.
    Senator Kohl. What do you like about school, Sally? Do you 
like your teachers?
    Ms. Paul. Yeah. And I like all my friends.
    Senator Kohl. You like your friends here too? Enjoy coming 
to school every day?
    Ms. Paul. Yeah.
    Senator Kohl. Kevin?
    Mr. Francis. (Nodding head).
    Senator Kohl. Do you like school?
    Mr. Francis. A lot.
    Senator Kohl. A lot. Enjoy coming to school every day, 
Carl?
    Mr. Metz. I like school and I love it because I want to 
learn and I want to grow up to be a teacher.
    Senator Kohl. You want to be a teacher. All right. Well, 
you've all done a great job here today. We really thank you for 
coming. You were outstanding. Thank you.
STATEMENT OF KAREN EARLY, NUTRITION COORDINATOR, BROWN 
            COUNTY EXTENSION, UNIVERSITY OF WISCONSIN
    Senator Kohl. Karen Early, who's University of Wisconsin 
Extension Service Food and Nutrition Division. Karen?
    Ms. Early. Thank you, Senator Kohl, for your commitment to 
addressing hunger in America and nutrition programs in 
particular. I also want to thank all of our partners from the 
University of Wisconsin system and the Food and Hunger Network, 
Green Bay schools, city and county governments and member and 
collaborator agencies.
    I wanted to appear before you today to tell you about food 
insecurity in Green Bay. The role of the University of 
Wisconsin Extension includes a focus on developing 
partnerships, conducting applied research and carrying out 
educational programs to address local needs.
    In response to comments, some such as what you've heard 
today, and also the changes in our welfare and family support 
programs and comments from our nutrition educators from 
cooperative extension, we became--began a food security 
initiative in 1995 in Brown County.
    What is food security? Food security is access by all 
people at all times to enough food for an active healthy life. 
Conversely, food insecurity is the limited or uncertain 
availability of nutritionally adequate and safe foods or 
limited ability to acquire acceptable foods in socially 
acceptable ways.
    Some of these overheads might be a little difficult to see 
when they're colored, but when the color goes away, you'll see 
them fine.
    When people are food insecure, they worry and stretch 
limited resources and reduce the quality of food eaten. When 
people are hungry or food insecure with hunger, it means that 
adults and then children have to reduce their intake because 
there wasn't enough money to buy food. A national USDA Food 
Security Survey in 1998 showed that 10\1/2\ million U.S. 
households were food insecure, meaning they didn't have access 
to enough food to fully meet their basic needs. Another 3\1/2\ 
percent were food insecure with hunger, meaning that adults and 
then children had to reduce their food intake.
    The survey tool asked questions like this: The food we 
bought just didn't last and we didn't have enough money to get 
more:
    Was this often, sometimes or never true for you in the last 
12 months?
    In the last 12 months, did you ever cut the size of your 
meals or skip meals because there wasn't enough food?
    And in the last 12 months did you ever not eat for a whole 
day because there wasn't enough money for food?
    In response to this USDA data and local observations of 
struggling families, Brown County wanted to examine food 
security at a local level to better understand the--not only 
the extent of hunger but how to address it locally.
    We first did the survey in 1998 and again in 1999 in 
partnership with the University of Wisconsin Green Bay Social 
Work Department who conducted the research with us. We used the 
USDA survey tool to measure respondents' food security status. 
It was modified to include questions pertaining to household 
size, age and employment status. In addition, respondents were 
asked the reasons for their food insecurity and were asked to 
identify what initiatives might help them gain better access to 
food.
    This is what we found: First of all, levels of food 
security in 1999 were very similar to 1998. More than half the 
respondents were food insecure to varying degrees.
    Overall 56 percent of at-risk households were food 
insecure, and you can see the three smaller pie components 
there were the food insecure households. This is a survey of 
at-risk households in Green Bay, not the total population.
    Twenty-two percent of respondents were food insecure with 
hunger. Ten different sites all serving households at risk for 
food insecurity were included in the evaluation, six for food 
pantries, two were WIC sides and two were meal sites. The total 
asked to participate was 760. We had 566 responses, which was a 
74 percent response rate.
    We asked--or of those households who are food insecure, 77 
percent were households with children.
    We asked which of the following hunger events occurred in 
the last year because there wasn't enough money to buy food, 
and of those households who were food insecure with severe 
hunger, 8 percent of children did not eat for a whole day; 18 
percent of children skipped a meal; one-quarter cut the size of 
the adult--of the child's meal; 41 percent of adults did not 
eat for a whole day; and 87 percent of adults skipped or cut 
the size of a meal.
    This is important because research has confirmed that 
inadequate nutrition, even for short periods of time, 
influences a child's behavior and ability to concentrate and is 
capable of producing impairments that can remain throughout 
life. Temporary food shortages can also modify the relationship 
between children and their families affecting parenting methods 
and the social behavior of adults.
    The degree of hunger did vary by the type of site that we 
surveyed people. Households receiving WIC food assistance were 
substantially more food secure than those using food pantries 
or meal sites. WIC is also known as a prevention program, a 
model worth noting when developing solutions to hunger.
    Approximately half of WIC respondents reported they were 
food insecure compared to 90 percent at food pantries, and 80 
percent at meal sites.
    The employment status of food insecure households is well 
worth noting. Virtually all food insecure respondents were 
unable to acquire food because of lack of money despite having 
employment income. Half the respondents who didn't have enough 
food were employed. The median wage of people using food 
assistance was $7.50 an hour. 60 percent of respondents earning 
this wage or less were food insecure to the same extent as 
those who were unemployed.
    Minority groups earn less than Caucasians and females 
earned less than males and were more likely to be unemployed.
    We also gathered information on the kinds of food 
assistance used by households. Interestingly, individuals who 
began seeking food assistance at pantries during the last year 
tended to be more educated and were more likely to be employed 
and earning $7.50 or less an hour. One-third of respondents 
were a new user of pantries for the first time within the last 
year, and I might add that one of the reasons that we did the 
research was because we kept hearing from pantries there was a 
growing use of food pantries among households and they were 
having a hard time keeping enough food available.
    Single parent households were more likely to be new users 
of pantries. Only one-quarter of respondents reported receiving 
food stamps during the last year while many more than this were 
eligible because there was confusion as to whether they were 
still eligible for food stamps with the welfare changes. And 
substantial numbers of people knew someone who needed 
assistance but were unable to get it.
    These are the reasons cited for why 22 percent--why the 22 
percent of food insecure households didn't have enough food. 
Over 90 percent reported they didn't have enough money for 
food. More than half reported it's too hard to get food and 
they don't have a car. One-third had difficulty getting food 
because of childcare, because of the work schedule, because 
they couldn't get to a food pantry during open hours. 
Approximately a quarter had difficulty getting food because 
they don't know how to prepare the foods that are available and 
it's too hard to get food because there's no grocery store in 
the area. Another 20 percent said a variety of good-quality 
food isn't available.
    Those who were food insecure with severe hunger cited 
additional reasons for not having enough. One-quarter had no 
working refrigerator and had difficulty transporting food on 
city buses. Another third couldn't cook or eat due to health 
problems and had no grocery store in their area.
    When we asked which initiative would help them get food, 
the following initiatives were cited: A grocery store downtown, 
traveling grocery store, a traveling food pantry, community 
gardens, different pantry hours and improved transportation. 
All these issues you can see affect access to food.
    So despite the strengths--strength of the U.S. economy, the 
nation's Nutrition Safety Net and local grass roots efforts to 
reduce hunger, national and local research has documented that 
many Americans and Wisconsin families and individuals still 
struggle to meet basic needs. Wisconsin is the 9th most food 
secure state in the union. If hunger exists here, it exists to 
a larger degree in most other places. Green Bay is just looking 
at the issue and chooses to decide that it's not going to 
happen here.
    The results of 1998 and 1999 research are being used to 
plan effective projects and address policy issues which could 
result in local solutions to food insecurity. Our local plans 
follow the USDA Action Plan for Food Security. Specific 
strategies are detailed in our summary report.
    In addition to having nutrition safety net programs in 
place such as the plan that Senator Kohl has outlined today, 
food security needs to address systems, job retention and 
advancement, a living wage, effective transportation systems, 
ready access to grocery store, profit/nonprofit partnerships, 
community gardens, and culturally sensitive education to 
develop food budgeting and food preparation skills. These are 
all part of addressing food security holistically.
    This approach is complex because it addresses societal 
issues systemically. However, if we address hunger 
holistically, we address a host of other important issues at 
the same time because as we all know, food security is really 
about moving out of poverty and about economic justice.
    Thank you for your time and your interest.
    Senator Kohl. Thank you, Karen. And now we open it to the 
first panel questions or comments from anybody in the audience.
    Thank you very much. Appreciate your being here today. 
You've been very helpful.
    Panel. Thank you.
    [The statement follows:]

                   Prepared Statement of Karen Early

    My name is Karen Early. I am the nutrition coordinator at Brown 
County Extension, which is part of the division of Cooperative 
Extension, in the University of Wisconsin-Extension.
    My comments today will be in two parts. First I will describe the 
Extension education response to community issues. Then I will tell you 
about my Extension work with the Brown County Food Security Initiative.
    It is my pleasure to appear before you today to tell you how UW-
Extension applies the research, knowledge and resources of the 
University of Wisconsin System to local problems such as food security 
for at-risk households. We do this through a unique partnership of 
counties, the U.S. Department of Agriculture and the University of 
Wisconsin System. In addition, local agencies and organizations 
collaborate to support and carry out educational programs in 
Wisconsin's counties and Indian reservations.
    I would like to briefly describe the components of this work--
coalition building and community planning, applied research, community 
education, and shaping public policy based on research and available 
resources.
    Coalition Building and Community Planning.--Extension faculty and 
staff excel in building local coalitions, which plan comprehensive 
community actions. This leadership can involve resources and 
partnerships with local agencies, government and other interest groups 
to work together to develop comprehensive food security efforts. The 
work I will describe in detail is an example of the work of a community 
coalition.
    Applied Research.--University of Wisconsin-Extension is 
strategically visible in every county of the state and is available to 
conduct applied research. Community based faculty work with community 
partnerships and campus research faculty, to engage the community 
finding answers to local problems. For instance, in 1999, Judi 
Bartfeld, an Extension specialist and assistant professor at UW-
Madison, conducted research at food pantries in 27 counties to learn 
more about the food needs of low income people across the state. My 
research, done in collaboration with Anne Kok, Extension specialist at 
UW-Green Bay, gathered valuable data on food security in this 
community.
    Community Education.--Educational responses take many forms. 
Examples are: teaching low-income families to make choices about low 
cost, nutritious foods; collaborating with financial professionals to 
teach people to manage money; conducting parent education workshops; 
developing parent support networks; teaching volunteers to maximize 
their efforts; and producing publications that are targeted to those 
who can benefit from information.
    Shaping Public Policy.--Extension promotes a family perspective in 
policymaking by offering research-based Family Impact Seminars in 
counties throughout the state. These seminars are educational programs 
designed to provide local decision-makers with reliable, unbiased 
information on current family issues. Seminar topics have included 
competent parenting, strengthening family and community partnerships, 
juvenile crime, welfare reform, poverty and fatherhood.

                 BROWN COUNTY FOOD SECURITY INITIATIVE
    The program that I will tell you about today is an example of the 
leadership UW-Extension provides to solve community problems. More 
specifically, this work was carried out as part of the UW-Extension 
Nutrition Education Program.
    Nutrition Education.--The University of Wisconsin Extension, 
Nutrition Education Program (WNEP) responds to the needs and resources 
of the economically poor by implementing community-based nutrition 
education programs. WNEP is a ten year partnership between the Food and 
Nutrition Service (FNS), the Wisconsin Department of Workforce 
Development (DWD), and the University of Wisconsin Extension (UWEX), 
which represents the ongoing support of 55 locally-elected county 
boards. WNEP educators teach youth and adults work with communities to 
improve food security.
    One of the components of the food security effort here is Brown 
County is community gardens. UW-Extension provides leadership for 
community gardens throughout Wisconsin.
    Community Gardening.--Extension collaborations with communities 
have created community gardens. Through volunteer participation and 
education, these gardens enable youth and families to grow vegetables 
in their community. These gardens also raise awareness of the issue of 
hunger in the community.
    UW-Extension is proud to bring University research, knowledge and 
resources to improve food security for at risk families of Brown 
County. We stand willing to continue and expand our efforts here and in 
other Wisconsin communities.
    Thank you for your interest and past support of our efforts. I will 
answer any questions you may have.
STATEMENT OF SHIRLEY WATKINS, UNDER SECRETARY FOR FOOD, 
            NUTRITION, AND CONSUMER SERVICES, OFFICE OF 
            THE SECRETARY, DEPARTMENT OF AGRICULTURE

                       INTRODUCTION OF WITNESSES

    Senator Kohl. We have a second panel. On the phone we're 
going to have Shirley Watkins who's in USDA, the United States 
Department of Agriculture. She's the Under Secretary for Food, 
Nutrition and Consumer Services. We have Richard Mortenson, 
from the Wisconsin State Department of Public Instruction, 
Nancy Bicoy, Brown County Community Foundation, and Nancy 
Armbrust, Director of Government Affairs, Schreiber Foods. 
Would you all like to come up here, please.

                           OPENING STATEMENT

    Ms. Watkins. Senator Kohl.
    Senator Kohl. Yes, Shirley.
    Ms. Watkins. Well, hello to everyone, I am so sorry that I 
am not able to be there with you in person, but because of some 
problems with airlines last night, I was not able to get there. 
I ended up staying on the airplane for about 7 or 8 hours 
before I was able to get back to Washington. So, I really am 
sorry that I'm not able to join you there in person.
    But I want to thank you, Senator Kohl, for giving me an 
opportunity to talk about the crucial issues of hunger and 
nutrition for children.
    I've been immensely pleased to listen to the first panel 
and their interest and concerns, as well as, the superintendent 
who made the welcoming remarks. One of the reasons I really 
hate that I wasn't there is because I didn't get a chance to 
eat lunch with you and enjoy the wonderful lunch with the 
children as well.
    I want to thank you publicly, Senator Kohl, for your 
steadfast, enthusiastic and sincere commitment to solving those 
problems of hunger in our communities and around the country. 
You've been a true friend of the programs on the Hill, 
especially for the school breakfast program. We are so grateful 
for your ongoing support, and I look forward to continuing to 
work with you as we work on the 2001 budget.
    The last time I was in Wisconsin, I was there to present 
the Dan Glickman Pyramid of Excellence Awards to the Milwaukee 
Hunger Task Force for the outstanding work that they do on 
behalf of needy families and children. Although you were not 
able to join us that day, you sent a lot of your staff to show 
just how important it was and to recognize the successful 
community organizations who are working tirelessly in Wisconsin 
to eliminate hunger.
    Well, the method you have today is just another clear 
example of your strong commitment and the concern that you have 
about the welfare of children in this country. Senator, I want 
to thank you for that.
    The Department of Agriculture's Nutritional Assistance 
Programs are designed to create and sustain a network of caring 
for those most at risk in this country. At the heart of our 
commitment is the nutritional welfare of America's children. We 
have 15 programs in USDA that work together helping to ensure 
that the children in this country will not go hungry. I know 
most of you are familiar with these programs, but I want to 
take just a second to talk about each one of them very briefly 
and let you know what they are. Some people don't know that 
these programs are administered by the Department of 
Agriculture.

                     NUTRITION ASSISTANCE PROGRAMS

    Our centerpiece program for food security is the Food Stamp 
Program. Another very important program to us is the Women, 
Infants and Children Supplemental Nutrition Program that we 
call WIC. We also have the National School Lunch and School 
Breakfast Programs. Our newest program for schools is the After 
School Snacks Program. We are also responsible for; The Child 
and Adult Care Food Program, the Summer Food Service Program, 
the Food Distribution Programs, and the Food Distribution 
Program on Indian Reservations. Now that's just a few of the 15 
programs, but these are the Programs that are at the core of 
our support for families and children in this country. Each one 
of these programs has nutrition at its core, and they each 
deliver a consistent message about the importance of healthy 
eating at every age, so that we can ensure a healthy life. We 
also work very aggressively with the Seniors Meals Program.

                          MISSION AND PURPOSE

    One thing that we work very hard on in our mission area at 
USDA is to ensure that we have a clear vision of what we are 
supposed to do as a team. We are a group of people working on 
behalf of families and children in this country. Our mission is 
to reduce hunger and food insecurity in partnership with 
cooperating organizations. We have formed a very close bond 
with community groups across the country to help us achieve 
this common goal.
    It's estimated, as you've already heard several of the 
speakers on the first panel mention, that there are 13 million 
children in this country who are hungry or suffer from food 
insecurity. That's an astonishing statistic, especially during 
this time of economic prosperity in this country.
    Our programs are an effective solution to the problem of 
hunger. Although some communities don't understand that these 
programs are available or they don't know how to access the 
programs. Oftentimes there are barriers to accessing these 
programs. We want to make certain that there are no longer 
barriers, and that's why we think it's so important to work 
with the various community groups across the country.
    Our programs address the nutritional welfare of our 
children at school, after school, during the summer, and they 
help families achieve real economic self sufficiency. This is, 
after all, what we want for everyone in this country. Our 
nutrition assistance programs are a big part of the answer. As 
I mentioned, access to these programs is one of our key 
priorities. We would like to provide information now available 
for better health to families and children to end the hunger 
problem.

                            BUDGET PROPOSAL

    The approval of our proposed fiscal year 2001 budget of 
$36.3 billion is of the utmost importance if we are to continue 
to maintain and support the vital nutritional needs facing 
America's families and children.
    For the record, Senator Kohl, I want to submit my approved 
testimony that outlines the specifics of the budget request. I 
want to share with the people of Wisconsin some of the things 
that we're asking for in the Food Stamp budget so you will know 
what those issues are.

                           FOOD STAMP PROGRAM

    We're requesting $22.2 billion for the Food Stamp Program, 
and that's a slight increase over our fiscal year 2000 budget. 
We have a few policy initiatives, one is to deal with the issue 
of eligibility of certain legal aliens. We propose to restore 
Food Stamp eligibility to aliens who legally resided in the 
United States on August the 22nd of 1996 who have subsequently 
reached age 65. We want to correct the inequity of treating 
some elderly legal aliens differently from others solely on the 
basis of a birthdate.
    The other proposal we want is to restore Food Stamp 
eligibility to legal immigrant adults who legally resided in 
the United States on August 22, 1996, and who live with 
eligible children effective April 1st, 2001. This proposal 
would also eliminate an inequity and would improve the well-
being of children by increasing the Food Stamp benefits to 
their low income-households. You've already heard someone 
mention transportation in the working poor families. We're 
proposing to make some changes to better serve the working poor 
by allowing States the option of making the regulations to 
allow States to use the TANF vehicle allowance for food stamps. 
We want the State to be able to use that same vehicle allowance 
so that people leaving welfare to go to work can qualify for 
Food Stamps without being stigmatized because of the value of 
their vehicles. The stringent limit currently in place is a 
barrier to participation by low-income people, and many of them 
are faced too often with the choice between buying food and 
reliable transportation. We want to make certain that we can 
eliminate that.

                        CHILD NUTRITION PROGRAMS

    One of the other issues that we have included in our budget 
proposal is a modest request of $2 million for nutrition 
education and training. Someone has mentioned that we have 
wonderful team nutrition materials, but we don't have money for 
local school districts and the states to provide for the 
training. So we are requesting a very modest amount of $2 
million. You might want to know that for the last 2 years we've 
had no funds allocated in our budget for nutrition education 
and training.
    The other piece I know Senator Kohl is extremely concerned 
about, is ensuring that we are able to complete our work on the 
Breakfast Research Pilots. We are going to announce the six 
selected school sites in the month of April. We did get funds 
in the amount of $7 million in the fiscal year 2000 budget, and 
we have requested the additional $6 million so we will be able 
to finalize the breakfast pilots.
    Also, we have two pieces of material that we have developed 
at USDA. One is ``Together We Can,'' a what, why and how 
handbook for working to end hunger in your community; the 
second is ``the National Nutrition Safety Net; the Tools for 
Community Food Security.'' These are going to be provided for 
the record to Senator Kohl, and we can make those available in 
Wisconsin and for you to distribute however you would like.
    [Clerk's note.--The publications are being retained in the 
subcommittee files.]
    Ms. Watkins. I certainly want to thank you for allowing me 
this opportunity, and because of the technology that we have, 
even though I couldn't be there in person, this does allow us 
an opportunity to communicate with you and to thank you. Also 
to let all of the people in Wisconsin know that we are here to 
work with them and to serve them. We are the people's 
department.
    Thank you very much for this opportunity, and I look 
forward to being able to answer any questions that you may have 
on any of the programs or on any of the budget issues.
    [The statement follows:]

                Prepared Statement of Shirley R. Watkins

    Good afternoon, and thank you for inviting me to be here today. I 
welcome any opportunity to talk about the crucial issues of hunger and 
nutrition for children, and I am especially glad to have this chance to 
publicly thank Senator Kohl for his steadfast, enthusiastic, and 
sincere commitment to solving these problems. You have been a true 
friend to our programs on the Hill--especially for the school breakfast 
program--and we are grateful for your ongoing support.
    The last time I was in Wisconsin, I came to present the Dan 
Glickman Pyramid of Excellence Award to the Milwaukee Hunger Task Force 
for its outstanding work on behalf of needy families and children. 
Senator Kohl was unable to be with us that day, but many of his staff 
came in to show us how important it is to recognize successful 
community organizations who work tirelessly to eliminate hunger. This 
event, today, is another clear example of how deeply you share our 
concern about the welfare of children in America. Thank you, Senator!
    The Department of Agriculture's nutrition assistance programs are 
designed to create and sustain a network of caring for those most at 
risk in this country. At the heart of our commitment is the nutritional 
welfare of America's children, and our 15 programs work together to 
help ensure that no child goes hungry. Most of you are familiar with 
these programs--Food Stamps, Women, Infants and Children or WIC, 
National School Lunch and School Breakfast, and our newest program--
After School Snacks. We are also responsible for the Child and Adult 
Care Feeding Program (CACFP), the Summer Food Service Program, and the 
Food Distribution Program on Indian Reservations. Each one of these 
initiatives has nutrition at its core, and each delivers a consistent 
message about the importance of healthy eating, at every age, to ensure 
a healthy life.
    Our mission statement is a pledge to reduce hunger and food 
insecurity in partnership with cooperating organizations, and we have 
formed close bonds with many community groups across the country to 
help achieve our common goals. It is estimated that 13 million children 
in this country are hungry or suffer food insecurity--that is an 
astonishing statistic especially during this time of economic 
prosperity. Our programs are an effective solution to the problem of 
hunger. They address the nutritional welfare of our children at school, 
after school, and during the summer, and they help families achieve 
real economic self-sufficiency. This is, after all, what we want for 
everyone in this country--our nutrition assistance programs are a big 
part of the answer. Access to these programs is one of our key 
priorities--access and information about the help that is available. 
The approval of our proposed fiscal year 2001 budget of $36.3 billion 
is of the utmost importance if we are to continue to maintain and 
support the vital nutrition safety net for America's families and 
children. For the record, I would like to submit my approved testimony 
outlining the specifics of the 2001 budget request.
    Again, thank you for this opportunity to meet with all of you and 
promote our nutrition assistance programs.
                                 ______
                                 

                 Biographical Sketch of Shirley Watkins

    Nominated by President Clinton to serve as Under Secretary for 
Food, Nutrition and Consumer Services, Shirley Watkins was confirmed by 
the Senate in July 1997. In this position, she oversees the Food and 
Nutrition Service (FNS) and the Center for Nutrition Policy and 
Promotion (CNPP) with a total annual budget in excess of $35 billion. 
The 15 nutrition assistance programs administered by FNS, which account 
for over two-thirds of the USDA budget, include the Food Stamp Program, 
the Women, Infants and Children Supplemental Feeding Program (WIC), the 
National School Lunch, School Breakfast, and After School Programs, and 
the Food Distribution Program on Indian Reservations. Under her 
leadership, each of these crucial elements of the nation's nutrition 
safety net have experienced significant improvement and expansion.
    Mrs. Watkins is also the first person to be named FNCS Under 
Secretary who brings direct management experience in nutrition 
assistance programs to the position, having served as the director of 
Nutrition Services for the Memphis (Tennessee) City Schools for 17 
years where she made significant improvements in the quality and 
nutritional content of school meals. Mrs. Watkins has also worked as a 
food service supervisor, a fourth grade and junior high school home 
economics teacher, and a home demonstration agent for the USDA 
Extension Service where she directed programs to help improve the lives 
of farm families and children.
    Prior to her current appointment, Mrs. Watkins was the USDA Deputy 
Assistant Secretary for Marketing and Regulatory Programs from 1995 to 
1997, and had responsibility for over 80 domestic programs and 8,000 
employees charged with protecting U.S. agricultural interests around 
the world. From 1993 to 1995, she served as FNCS Deputy Under 
Secretary, tasked with the reinvention of its nutrition assistance 
programs and the improvement of consumer outreach activities.
    A native of Hope, Arkansas, Under Secretary Watkins received her 
bachelor of science degree from the University of Arkansas at Pine 
Bluff and her master of education in administration and supervision at 
the University of Memphis. She has pursued additional graduate studies 
in instructional design, and has completed the Senior Executive 
Leadership Program at USDA and Leadership America. Mrs. Watkins served 
as President of the 65,000 member American School Food Service 
Association, underscoring the role of that organization as a powerful 
advocate for children and child nutrition. Her outstanding leadership 
has earned her recognition from the American Dietetic Association, the 
International Food Service Manufacturer's Association, the Food 
Research and Action Council, and numerous other professional 
organizations. She brings a broad knowledge of education, nutrition and 
business through her association with governmental agencies, local, 
state and federal legislators, professional and social organizations, 
academic institutions, industry, and health practitioners, and is a 
strong and highly effective leader and innovator.
                                 ______
                                 

   U.S. Department of Agriculture Food and Nutrition Service Programs

    The Food and Nutrition Service administers the nation's nutrition 
assistance programs. FNS's goals are to provide needy people with 
access to a more nutritious diet, to improve the eating habits of the 
nation's children and to stabilize farm prices through the distribution 
of surplus foods.
Food Stamp Program
    The cornerstone of USDA's nutrition assistance programs, the Food 
Stamp Program issues monthly allotments of coupons that are redeemable 
at retail food stores, or provides benefits electronically in the form 
of a debit card. Eligibility and allotments are based on household 
size, income, assets and other factors.
WIC--the Special Supplemental Nutrition Program for Women, Infants and 
        Children
    WIC's goal is to improve the health of low-income pregnant, 
breastfeeding and nonbreastfeeding postpartum women, and infants and 
children up to 5 years old. WIC provides supplemental foods, nutrition 
education and access to health services. Participants receive vouchers 
that can be redeemed at retail food stores for specific foods that are 
rich sources of the nutrients frequently lacking in the diet of low-
income mothers and children.
National School Lunch Program
    The NSLP provides cash reimbursements and commodity foods to help 
support non-profit food services in elementary and secondary schools, 
and in residential child care institutions. Every school day, more than 
26 million children in 94,000 schools eat lunch provided through this 
program. More than half receive the meal free or at a reduced price.
School Breakfast Program
    The SBP provides a healthy breakfast for students in participating 
schools. As with the School Lunch Program, low-income children may 
qualify to receive school breakfast free or at a reduced price, and 
states are reimbursed according to the number of meals served.
Summer Food Service Program
    Through the SFSP, low-income children receive meals during the 
school vacation periods. All meals are served free, and the federal 
government reimburses local sponsoring organizations for meals served. 
FNS is always seeking new sponsors.
The Emergency Food Assistance Program (TEFAP)
    TEFAP was originally designed in 1981 to reduce inventories and 
storage costs of surplus commodities by distributing the commodities to 
needy households. While some surplus food is still distributed through 
TEFAP, since 1989 Congress has appropriated funds to purchase 
additional commodities for households.
Child and Adult Care Food Program
    The CACFP provides cash reimbursements and commodity foods for 
meals served in child and adult care centers, and family and group day 
care homes for children.
The WIC Farmers' Market Nutrition Program
    The FMNP provides WIC participants with increased access to fresh 
produce by providing them coupons to purchase fresh fruits and 
vegetables at authorized local farmers markets.
Commodity Supplemental Food Program
    A direct food distribution program with a population similar to WIC 
(see above), CSFP also serves the elderly. The food packages are 
tailored to the nutritional needs of participants.
Special Milk Program
    Children in schools, summer camps and child care institutions that 
have no federally-supported meal program receive milk through the 
Special Milk Program.
Food Distribution Program on Indian Reservations
    The FDPIR provides commodity foods to Native American families who 
live on or near Indian reservations.
Nutrition Program for the Elderly
    The NPE provides cash and commodity foods to states for meals 
served to senior citizens. The food is served in senior citizen centers 
or delivered by meals-on-wheels programs.
Commodity Distribution to Charitable Institutions and to Soup Kitchens 
        and Food Banks
    Commodities from USDA surplus stocks are provided as available to 
non-profit charitable institutions that regularly serve meals to needy 
persons. The variety and dollar value of the foods donated varies 
according to market conditions.
Homeless Children Nutrition Program
    The HCNP reimburses providers for nutritious meals served to 
homeless preschool-age children in emergency shelters.
Nutrition Education and Training Program
    NET supports nutrition education in the nutrition assistance 
programs for children.
                                 ______
                                 

                      USDA Nutrition Program Facts

                        SCHOOL BREAKFAST PROGRAM
    Question. What is the School Breakfast Program?
    Answer. Some 7.2 million children in more than 70,000 schools start 
their day with the School Breakfast Program, a Federal program that 
provides States with cash assistance for nonprofit breakfast programs 
in schools and residential child care institutions.
    Teachers have reported that their students are more alert and 
perform better in class if they eat breakfast. Studies support that 
notion. Most recently, a 1998 Tufts University statement on the link 
between nutrition and cognitive development in children cited new 
findings: ``Children who participated in the School Breakfast Program 
were shown to have significantly higher standardized achievement test 
scores than eligible nonparticipants. Children getting school breakfast 
also had significantly reduced absence and tardiness rates.''
    Two other recent studies, by the State of Minnesota and by Harvard 
Medical/Massachusetts General Hospital, found that students who ate 
school breakfast had improved math grades, reduced hyperactivity, 
decreased absences and tardy rates, and improved psycho-social 
behaviors. A 1989 study published in the American Journal of Diseases 
of Children found that ``participation in the School Breakfast Program 
is associated with significant improvements in academic functioning 
among low-income elementary school children.''
    The School Breakfast Program began as a pilot project in 1966, and 
was made permanent in 1975. The program is administered at the Federal 
level by the U.S. Department of Agriculture through its Food and 
Nutrition Service (FNS), formerly the Food and Consumer Service (FCS). 
State education agencies and local school food authorities administer 
the program at the local level.
    Recognizing the importance of a nutritious breakfast, USDA has 
actively promoted the School Breakfast Program, and at the same time 
has made a commitment to improve the nutritional quality of all school 
meals. Regulations now require that all school meals meet the 
recommendations of the Dietary Guidelines for Americans. In addition, 
breakfasts must provide one-fourth of the daily recommended levels for 
protein, calcium, iron, Vitamin A, Vitamin C and calories.
    USDA continues to work with state and local school food authorities 
through its Nutrition Education and Training Program and Team Nutrition 
initiative to teach and motivate children to make healthy food choices, 
and to provide school food service professional staffs with technical 
training and support.
    Question. What schools and institutions can participate?
    Answer. Public schools or non-profit private schools of high school 
grade or under, and residential child care institutions are eligible to 
participate in the School Breakfast Program. Participating schools and 
institutions must serve breakfasts that meet Federal nutrition 
standards, and must provide free and reduced-price breakfasts to 
eligible children.
    Question. Who gets free or reduced-price breakfasts?
    Answer. Any child at a participating school may purchase a meal 
through the School Breakfast Program. However, children whose families 
meet income criteria may receive free or reduced-price breakfasts. 
Children from families with incomes at or below 130 percent of the 
poverty level (currently $21,385 for a family of four) are eligible for 
free meals. Those between 130 percent and 185 percent of the poverty 
level (currently $30,433 for a family of four) are eligible for 
reduced-price meals. Children from families over 185 per cent of 
poverty pay a full price, though their meals are still subsidized to 
some extent.
    Question. How do schools get reimbursed for meals?
    Answer. The Federal government reimburses the schools for each meal 
that meets program nutritional requirements. Schools submit a claim to 
their State agency for meals served. USDA reimburses the State, which 
in turn reimburses the local school food authority. For school year 
1998-1999, the Federal Government reimburses schools at the following 
rates:
  --$1.0725 per meal for free breakfasts.
  --77.25 cents for reduced-price breakfasts.
  --20 cents for paid breakfasts.
    Schools may qualify for higher ``severe-need'' reimbursements if a 
specified percentage of their meals are served free or at a reduced 
price. Severe-need payments are up to 20 cents higher than the normal 
reimbursements for free and reduced-price breakfasts. More than 70 
percent of the breakfasts served in the School Breakfast Program 
receive the severe-need subsidy. Reimbursement payments for all meals 
are higher in Alaska and Hawaii.
    Schools may charge no more than 30 cents for a reduced-price 
breakfast. Schools set their own prices for breakfasts served to 
students who pay the full meal price.
    Question. How many children participate? At what cost?
    Answer. For fiscal year 1999, Congress appropriated $1.4 billion 
for the School Breakfast Program, up from $1.3 billion in fiscal year 
1998.
    In fiscal year 1998, an average of 7.1 million children 
participated every day. Of those, 6.1 million received their meals free 
or at a reduced price.
    By comparison, participation and cost in previous years:
  --1995: 6.3 million children at a cost of $1.05 billion
  --1990: 4.1 million children at a cost of $596.2 million
  --1985: 3.4 million children at a cost of $379.3 million
  --1980: 3.6 million children at a cost of $287.8 million
  --1975: 1.8 million children at a cost of $86.1 million
  --1970: 500,000 children at a cost of $10.8 million
For more information:
    The Food and Nutrition Service was formerly known as the Food and 
Consumer Service. Information on FNS programs is also available on the 
World Wide Web at www.usda.gov/fcs, and will be available soon on a new 
web site: www.usda.gov/fns.
                                 ______
                                 

                               The Facts

    Question. How many kids eat breakfast at school?
    Answer. About 7 million children each day eat school breakfast. 
(About 25 million children eat school lunch).
    Question. How large is the School Breakfast Program?
    Answer. About 69,000 schools nationwide offer breakfast at school. 
(Over 94,000 schools offer school lunch).
    Question. Compared to school lunch, how many children eat school 
breakfast?
    Answer. Compared to eating school lunch every day, only about 1 in 
4 children eat school breakfast.
  --Not every child who eats lunch has an opportunity to eat breakfast 
        at school.
  --Breakfast is available in far fewer schools than is lunch. In 
        fiscal year 1997, 68,718 schools offered school breakfast as 
        opposed to 94,714 that offered school lunch.
  --The great majority of children who currently participate in the 
        breakfast program (86 percent, as opposed to 57 percent in the 
        lunch program) receive their meals free or at a reduced price. 
        As a result, school breakfast has come to be thought of in many 
        places as a program for low-income children.
  --The School Breakfast Program started out as a two-year pilot 
        program under the Child Nutrition Act of 1966 and was made 
        permanent in October 1975.
  --The School Breakfast Program is available to the same schools and 
        institutions as the National School Lunch Program.
  --Over the last 10 years the School Breakfast Program has nearly 
        doubled in participation.
  --In 1997, school breakfast was served in 68,718 schools and 
        institutions, providing a total of 1,187,674,480 breakfasts.
  --So far, in 1998, the average daily number of breakfasts served in 
        schools and institutions is 6,776,154.
                                 ______
                                 

                              The Research

    A recent State of Minnesota Breakfast Study found that students who 
ate breakfast before starting school had a general increase in math 
grades and reading scores, increased student attention, reduced nurse 
visits, and improved student behaviors. (December, 1997)
    Researchers at Harvard Medical/Massachusetts General Hospital in 
Boston found that hungry children are more likely to have behavioral 
and academic problems than children who get enough to eat. At school, 
hungry children had more problems with irritability, anxiety and 
aggression, as well as more absences and tardiness. (Pediatrics, 
January, 1998; Journal of the American Academy of Child and Adolescent 
Psychiatry, February, 1998)
    The recent Tufts University Statement 1998 on The Link Between 
Nutrition and Cognitive Development in Children cites new findings: 
``Recent research provides compelling evidence that undernutrition 
impacts the behavior of children, their school performance, and their 
overall cognitive development.''
    The School Breakfast Scorecard, October, 1997, produced by the Food 
Research and Action Center (FRAC) contains data and explanations to 
assist in evaluating efforts in the 50 states and the District of 
Columbia to ensure availability of breakfasts in schools to children 
who might otherwise go without a meal. The scorecard covers the 1996-97 
school year.
    USDA's School Nutrition Dietary Assessment Study (1993) showed that 
School Breakfast Program meals are nutritionally superior to other 
breakfasts, including breakfasts at home, on many key nutrients.
    A 1989 study published in the American Journal of Diseases of 
Children found that ``participation in the School Breakfast Program is 
associated with significant improvements in academic functioning among 
low-income elementary school children.''
                                 ______
                                 

      Afterschool Snacks in the Child and Adult Care Food Program

    Question. What are ``Afterschool Snacks?''
    Answer. The Child and Adult Care Food Program (CACFP) now offers 
cash reimbursement to help organizations serve free snacks to children 
in afterschool care programs. Afterschool snacks give children a 
nutritional boost and draw them into supervised activities that are 
safe, fun and filled with learning opportunities.
    Question. How can children benefit from the snack service?
    Answer. Afterschool snacks help ensure that children receive the 
nutrition they need to learn, play and grow. Organized, structured, and 
supervised programs that provide snacks allow children to think and 
behave better, and help them make the grade!
    Question. Is my afterschool care program eligible?
    Answer. In order for a site to participate, your program must be 
``area eligible'' (go to Question 6). Additionally, your afterschool 
care program must provide children with regularly scheduled educational 
or enrichment activities in a supervised environment. Contact your 
State agency for further information regarding program eligibility.
    Question. What type of snacks must be served in my program?
    Answer. In order to be reimbursed, the snacks must contain at least 
two different components, out of the following four: a serving of fluid 
milk; a serving of meat or meat alternate; a serving of vegetable(s) or 
fruit(s) or full strength vegetable or fruit juice; a serving of whole 
grain or enriched bread and/or cereal.
    Question. How much money will my organization get for serving 
snacks?
    Answer. For the period of July 1, 1999 through June 30, 2000, the 
reimbursement rate is $0.54 for free snacks. Please note that these 
rates are higher in Alaska and Hawaii. Reimbursement rates are adjusted 
annually, every July 1.
    Question. How is ``area eligible'' defined?
    Answer. An afterschool care program site is ``area eligible'' if it 
is located in the attendance area of a school where at least 50 percent 
of the enrolled children are eligible for free or reduced price meals. 
Afterschool care programs can use free and reduced price meal data from 
elementary, middle, and high schools to document a site as ``area 
eligible''.
    Question. How do I apply for afterschool snacks?
    Answer. Contact your CACFP State agency to participate. In most 
cases, the CACFP State agency will be your State Department of 
Education.
    Question. When do the reimbursements begin?
    Answer. As soon as the State agency approves your application, 
reimbursement will be earned for the snacks you serve to eligible 
children and youth, through the age of 18.
    Question. What records must be maintained?
    Answer. Your State agency will provide you with specific 
information on the reporting and recordkeeping requirements. You will 
need to maintain a roster or sign-in sheet for participating children. 
Additionally, you must record and report the total number of snacks you 
serve each day, and document compliance with the meal pattern for 
CACFP. Your State agency will be able to provide you with a copy of the 
CACFP meal pattern.
    Question. Can I receive reimbursement during the summer months?
    Answer. You may only receive reimbursement for afterschool snacks 
served in CACFP during times of the year when school is in session. 
However, your program may be able to participate in our Summer Food 
Service Program (SFSP) during the summer months, and receive 
reimbursement for providing nutritious meals and snacks to children and 
youth in your program. Your State agency can also provide you with 
information on participating in the SFSP this summer.
    Question. Who administers the program?
    Answer. The CACFP is administered on the Federal level by USDA's 
Food and Nutrition Service. Within individual States, the Program is 
administered by a State agency, in most cases through offices in the 
State Department of Education. At the local level, the program is 
administered by participating institutions or organizations.
STATEMENT OF RICHARD MORTENSON, WISCONSIN STATE 
            DEPARTMENT OF PUBLIC INSTRUCTION
    Senator Kohl. We thank you very much, Shirley, for your 
testimony and your comments and they will be very helpful to us 
as we proceed. We thank you so much.
    Our next speaker will be Richard Mortenson from the 
Wisconsin State Department of Public Instruction.
    Mr. Mortenson. Thank you, Senator, for allowing us to be 
here today and to testify in support of S. 1958. The 
legislation you introduced will provide an essential incentive 
for schools to implement the School Breakfast Program. 
Breakfast is an important component in addressing hunger and 
essential to promoting the health of our children, and academic 
children.
    Understanding this, we are very concerned with Wisconsin's 
low participation in the school breakfast program. Based on 
participation figures from 1992-93 school year compared to 
1998-99, we have made a lot of accomplishments. We've basically 
doubled our food service sites in the State of Wisconsin, and 
we've doubled the participation, but this is not enough, we 
have a lot more to do.
    On the national level, 23 States have mandated that certain 
schools participate in the breakfast program. Wisconsin does 
not have a mandate. To support local discretion, our State 
legislature authorized a school breakfast startup grant in 
1994-95 with an annual appropriation of $150,000.
    Through the 1999-2000 school year, we granted $900,000 
resulting in implementation of breakfast programs in 113 
schools reaching an estimated 11,000 children. The breakfast 
startup legislation is deleted after the 1999-2000 school year, 
and beginning in 2000-2001, a 10 cent per breakfast 
reimbursement will be provided for each breakfast served under 
the School Breakfast Program. The appropriation of 2000-2001 is 
approximately $900,000 as requested in our department's 
biannual budget request, and strongly supported by the 
Wisconsin School Food Service Association and other allied 
organizations as a means to help schools sustain existing 
breakfast programs.
    This was excellent legislation and an increased financial 
commitment by our State. Senator Kohl, your startup grant 
legislation will allow us to continue offering the financial 
incentive to initiate breakfast programs.
    In 1999-2000, we were unable to fund nine schools serving 
approximately 2,500 children because of insufficient funds. 
Insufficient funds must not be the barrier that blocks access 
to breakfast programs for Wisconsin children.
    In an effort to eliminate financial barriers, our 
legislature has introduced Senate Bill 399. The bill provides 
that school district's revenue limit is increased by an 
amount--by an amount equal to the cost incurred by a school 
district to establish a school breakfast or a school lunch 
program.
    The bill also directs each school district that has neither 
a lunch or a breakfast program to annually submit an evaluation 
of how well nourished pupils are in the district.
    Your bill, Senator Kohl, would be a perfect one with the 
State legislation.
    As I listened to the testimony of the social workers and 
others last week on Senate Bill 399, many of the truths and 
findings of the Tufts University School nutrition were brought 
to mind. Testimony focused on the impact of undernutrition on 
the behavior of children and school performance. Undernourished 
children are more susceptible to illness and are more likely to 
be absent from school; hungry children have diminished 
attention spans and are unable to perform tasks as well as 
their nourished peers. Particularly alarming to me in this 
testimony was a social worker who believed she observed 
increased aggression and violence in hungry children. Obviously 
we must expand access to nutrition programs to help insure 
children are prepared to learn.
    Realizing that public awareness and education are also 
critical to breakfast expansion, we began a campaign entitled 
Good Breakfast for Good Learning. This initiative began in 1966 
with the focus on schools to relate the importance of breakfast 
for students relative to learning and behavior, and to actively 
promote good nutrition and breakfast for all students.
    In 1998, the initiative was expanded to parents and other 
community organizations. Basically 20-minute presentations are 
offered to teachers, principals, administrators, school 
nutrition staff and school board members and parents to discuss 
the nutritional impact of breakfast and how to access a variety 
of resources.
    Special thanks need to be given to the Maternal and Child 
Health Education and Training Institute of the University of 
Wisconsin, the Milwaukee Hunger Task Force, and the Wisconsin 
Division of Health for their commitment to this initiative.
    USDA's pilot on universal breakfast will help us move 
closer to the objective of meeting the nutritional needs of 
children. The nutrition, education and training program would 
also help us meet this objective and is critical to maintaining 
a national infrastructure for the training of school food 
personnel and instructing teachers in nutrition, education and 
teaching children about the relationship of nutrition to 
health.
    However, I believe that the $2 million requested by USDA is 
not adequate. To promote a national infrastructure, $5 million 
is probably the minimal amount necessary. In Wisconsin, an 
adequately funded Net program would help us focus on nutrition 
issues and overcome attitudinal barriers through awareness 
initiatives such as the Good Breakfast for Good Learning 
initiative just discussed.
    Some of the attitudes that Net helps us to overcome are 
breakfast is a responsibility of the home, not the school; the 
program will lose money which the general funds cannot support; 
children can purchase from vending machines.
    In addition to financial issues, we need to focus attention 
on the administrative and paperwork burdens faced by schools 
and States. Regulatory changes can be made to allow nutrition 
professionals more time for nutrition, and nutrition education 
activities while maintaining program accountability.
    An example is the application process for free and reduced 
priced meals. The process is confusing and time intensive for 
parents and schools. One possible solution discussed for years 
is linking to the IRS database which contains the same family 
size income data on the application form--as on the application 
form. The time savings would be significant and possibly would 
improve accountability of program benefits provided.
    Another example of potential regulatory change is the 
computer analysis required by Federal regulations of 1 week of 
menus on the school lunch program. The time expended 
calculating the nutrient data would be better spent on more 
global approaches to nutrition and nutrition education.
    Now Senator, I'd like to thank you for the opportunity.
STATEMENT OF BRETT BICOY, BROWN COUNTY COMMUNITY 
            FOUNDATION
    Senator Kohl. Thank you very much, Richard. We'd like to 
ask Brett Bicoy from Brown County Community Foundation to make 
a statement.
    Mr. Bicoy. Good afternoon, Senator Kohl and the many others 
who have gathered here today. I am pleased and honored to have 
this opportunity to share with you some of the impressive 
partnerships we have built in Green Bay to address the issue of 
hunger in our community.
    Our downtown elementary schools, like the one we're sitting 
in today, have become major centers of community activity, both 
after school and during the summer months. The Green Bay Area 
Public School District has been an exceptional host opening 
these facilities to a wide range of nonprofit organizations. On 
any given afternoon in a downtown Green Bay school, you might 
find the YMCA staff offering recreational activities, the 4H 
program providing extended learning opportunities, the Catholic 
Diocese celebrating Hmong culture and the technical college and 
the literacy council offering literacy programs for the whole 
family.
    Senator, the plan you outline today will have a direct 
impact on the effectiveness of many of these after-school 
efforts. These programs try, as much as possible, to widely 
vary the ages of children that participate. We want younger 
children to be involved with older children in positive 
activities. The rationale is a simple one: The young kids are 
going to mimic the behavior of their older counterparts, 
whether that behavior is constructive or destructive. We want 
those older brothers and sisters to be modeling positive and 
constructive behavior.
    What this has meant in practical terms is that the 
wonderful after-school feeding programs often go unused by some 
of these programs. For instance, some of the extended learning 
opportunities partner high schoolers with elementary students 
right in the classroom after school. Rather than offer a snack 
to only those children who qualify and not the others, these 
programs simply choose not to utilize the public schools after-
school feeding program. This is at the same time the school 
offers their quality meal program to participants in a 
different program exclusively for young children that may be 
going on in the very next room in the same building. Your plan, 
Senator, would immediately solve this problem and we thank you 
for your effort.
    The way this problem developed, however, I think is 
indicative of the changing manner in which we provide positive 
activities for children during nonschool hours. Due in part to 
the efforts of former Congressman Jay Johnson, Green Bay was 
privileged to receive a 21st Century Learning Center Grant a 
few years ago. When a group of us wrote that grant, we 
envisioned a myriad of after school activities targeted at 
elementary school children and largely coordinated and offered 
by the public schools themselves.
    While the schools have used these monies to offer value 
education--valuable educational opportunities, we never foresaw 
the incredible degree to which nonprofit organizations would be 
offering the programs. Consequently, we didn't recognize the 
wide range of ages these--of children these agencies served, 
and thus we never anticipated the issues that arose with the 
age limitations on children who participate in after school 
meal programs.
    If there was a lesson to be learned here, it's to recognize 
the importance of incorporating a certain level of flexibility 
into these funding programs.
    My role at the greater Green Bay Community Foundation is to 
direct the organization's granting operations. In essence, I 
oversee the distribution of our charitable dollars, many of 
which support the before and after school programs and the 
summer activities that utilize these school meal programs.
    With each and every grant that the community foundation 
makes, we face the continual struggle to balance our need for 
basic standards of performance while still offering the 
grantees a level of flexibility that allows them to respond to 
changes and take advantage of new opportunities to improve 
their programs. The simple fact of the matter is as much as I 
like to think I know everything, my wife is always quick to 
point out that I do not.
    The lesson that I learned, and I would like to convey to 
everyone involved in the development of these important 
programs, is to be sure to incorporate a sufficient level of 
flexibility into the rules.
    For instance, more and more, many of our local programs are 
targeting whole families instead of just the children alone. We 
need the flexibility to explore ways to juggle the Federal 
Summer Food Service Program money for children in the context 
of serving the entire family.
    We also have the problem of children not going to meal 
sites during the summer because their parents don't want them 
to cross at major streets or major intersections. Remember, 
there are no crossing guards during the summer. We need to 
explore--we need the flexibility to explore nontraditional meal 
sites and to explore the delivery of meals to children who are 
home alone.
    We all recognize the need for hard and fast rules to ensure 
the quality and safety of meal programs, that's not in 
question. But we also recognize that without sufficient 
flexibility in these programs, innovation will be stifled and 
the children will pay the consequences.
    If I could, Senator, I'd like to make one last comment 
before I get off my soapbox for the day.
    These programs are of critical importance to our community. 
The fact that we can enjoy this level of prosperity and still 
experience food insecurity is almost unbelievable. But as you 
heard from the earlier panel, food insecurity is a real 
problem. The study shows that over half the food insecurity 
occurs among working families in our community. These programs 
alleviate the problems of hunger in Green Bay, but they do not 
eliminate it.
    We agree with the USDA Community Food Security Initiative 
as it outlines a number of steps that can be taken to overcome 
this problem, but perhaps the most significant of all their 
recommendations is increase in economic and job security.
    The study that was conducted shows that an unskilled worker 
who makes $7.50 an hour often cannot adequately feed his or her 
two children. The problems that we are talking about today are 
of critical importance because they alleviate the problem of 
feeding those children today. But for that family, perhaps an 
investment in job skills education, of budget training or 
health insurance or childcare subsidies will not just alleviate 
the problem of hunger, but eliminate it once and for all.
    Senator, on behalf of all of us in Green Bay--in this Green 
Bay area who deal with these issues, please accept our deep and 
sincere thanks for coming here today. Sometimes we get a little 
worked up here in Green Bay, and every time we recognize that 
something has changed for the better, we point out two other 
things that are wrong with what goes on in our community. 
Please know, however, that we all recognize and appreciate the 
important work you are doing in Washington on behalf of the 
less fortunate children and families in our community.
    Senator Kohl. Thank you very much, Brett. Our last speaker 
for today is Nancy Armbrust who's director of government 
affairs for Schreiber Foods. Nancy?
STATEMENT OF NANCY ARMBRUST, DIRECTOR, GOVERNMENT 
            AFFAIRS, SCHREIBER FOODS
    Ms. Armbrust. Thank you. Good afternoon. Brett Bicoy and I 
were asked here today to talk a little bit about the exciting 
partnerships that exist in this community and the results that 
we're seeing, especially as they impact children and hunger, 
children and nutrition.
    I've been asked--Brett and I decided that I would share 
with you a few moments of why I think it's important that 
companies like ours, Schreiber Foods, get involved in this 
activity. And I want to thank you, Senator, for inviting me 
here today to share with you these comments, and I also want to 
acknowledge the wide number of partnership members that exist 
in the audience today. I appreciate the opportunity to 
represent you, and I'm sure you'll tell me if I haven't 
represented you well.
    But I hope you were able to picture in your mind, from what 
Brett commented, on the many positive ways our community is 
working together to support children and their families in 
obtaining the resources, skills and knowledge to create and 
sustain a healthy quality of life.
    These results have been achieved through the development of 
several public/private partnerships, too many to name today, 
but there are three I'd like to discuss or at least mention: 
Partners in Education, which represents business and all 10 
area school districts; Community Partners, which is sponsored 
by United Way and the University of Wisconsin Extension of 
Brown County, whose focus is on positive youth development; and 
the Mayor's Neighborhood Resources Board that has provided 
innumerous help to neighborhood and neighborhood organizations 
in our community.
    Each of these organizations have, as part of their focus, 
to insure that all the children of Brown County come to school 
ready to learn and stay actively engaged in the learning 
process through high school graduation and beyond.
    As partners in these several initiatives, we've looked 
beyond the normal classroom walls for solutions as Brett 
described earlier.
    While, as companies, we may have provided donations of 
dollars, space and food--and I don't want to underestimate 
those donations because they are important--I believe the most 
valued resource has come from our employee volunteers. These 
individuals--and again, not only in our company but numerous 
companies throughout this community who are supported by 
organizations--have provided leadership, they've shared their 
unique skills and knowledge while serving as mentors, not only 
to our youth, but to the neighborhood organizations as well.
    An example is during the past 2 years, we have 
significantly expanded the number of children utilizing both 
the after school and summer food programs as a result of 
volunteers. Individuals have facilitated the coming together of 
various agencies and provided ongoing support in the 
implementation of these initiatives. Again, many of those 
people are in the room today.
    If I tried to describe that type of meeting and the 
discussions that go on and so you could really see the value of 
these volunteers, it would probably take me the next hour, hour 
and a half. But having volunteers that can provide the 
continuity and the consistency and the resources to help bring 
people together, identify the barriers that exist; we can't do 
that because we don't have space; we can't do that because we 
only deliver to these schools, we don't deliver to these 
schools; or we can't do that because we only operate our 
programs these weeks versus these weeks. When we got these 
people together and as the group of volunteers worked together, 
we were able to identify ways to overcome those barriers and to 
supplement the holes that were missing in terms of providing 
continuity of service to children in these programs.
    Now I'll get on my soapbox. Why are we involved? This is 
really simple. Even if we weren't a food company, we would 
understand this and many of our organizations do in this 
community. Investment in the elimination of hunger today is a 
good business decision. If we fail to make this investment, it 
is doubtful that we can sustain the healthy economic growth 
that we have experienced in recent years.
    The information that we heard earlier today from Karen 
Early's report is alarming to us. Parents who are hungry, who 
are worried about feeding their children are distracted at 
work, they have higher levels of absenteeism and experience 
increased health care claims which significantly impacts our 
ability as an organization to meet our customer requirements.
    As companies, we understand the research that tells us how 
poor nutrition impacts the behavior of children, their school 
performance and their overall cognitive development. Poor 
performance early in school is a major risk factor for dropping 
out of school in later years.
    Also, information and research from the Tufts University 
Study that was mentioned earlier, there is good news. While 
there is a clear link to the intellectual development of 
children who do not receive adequate nutrition, in many cases 
this damage can be reversed and may not be permanent if action 
is taken.
    The children of today make up the workforce of Brown County 
and America. By companies such as ours not aggressively taking 
steps to end childhood hunger today, we are not only 
compromising their futures, but ours as well.
    So what else can we do? We sincerely applaud your efforts 
and the efforts of this committee and others to expand and 
enrich the programs that have been outlined earlier today for 
all the reasons that everybody has talked about.
    If you look across the street outside of Nicolet School, 
you will see the Rosebush Childcare Center. This center, one of 
several operated by Encompass Childcare in our community, was 
built primarily through the donations of private companies and 
individuals. This center, working in partnership with Nicolet 
School and Headstart programs, provides wrap-around childcare 
for Headstart students. Providing additional resources for hot 
lunches to low-income children at centers like these will have 
an immediate impact on the overall quality of their nutrition.
    As I was walking in the door this afternoon, one of the 
staff members stopped me and mentioned that of the seven 
centers that serve hot lunch programs throughout Green Bay, 40 
percent of the children served received free or reduced lunch.
    Also introduction of incentives to expand the School 
Breakfast Program and allow after-school programs to serve 
teens up to 18 years will add important resources to our 
current efforts in Green Bay as Brett has discussed.
    As Karen Early stated in her comments, the Brown County 
study showed that 50 percent of those individuals who are food 
insecure are working. That's amazing to me. I was not aware of 
that until I looked at the survey, and it leaves me somewhat 
dumfounded.
    In addition to everything that we have talked about 
earlier, all the other efforts, I believe that we're missing an 
opportunity here, and that's one that we need to increase the 
awareness of employers, like our company, of the role that they 
can play in assuring that their employees have the information 
and access to these programs.
    We have a captive audience and I believe it's an 
opportunity that we're missing both in partnering with yourself 
and the public, as well as taking a look at how we can provide 
these resources to our employees.
    Thank you very much for your time and thank you very much 
for coming to Green Bay.
    Senator Kohl. Thank you, Nancy. And ladies and gentlemen, 
do you have any comments, suggestions, thoughts to express to 
our panelists today? Yes.
STATEMENT OF DONNA FREEMAN, COFOUNDER AND RESOURCE 
            DEVELOPER, FORT HOWARD/JEFFERSON RESOURCE 
            CENTER
    Ms. Freeman. I'd just like to talk a little bit about what 
Brett touched on on the inflexibility of the programs and the 
concern that we have. I'm sorry. Donna Freeman.
    Last summer--I'm a cofounder and resource developer of the 
Fort Howard/Jefferson Resource Center, and last summer we did 
the--tried to do something very innovative with the summer 
breakfast feeding program. Again, for many of the reasons that 
Brett pointed out as far as children not being able to cross 
the streets or, you know, parents going to work and not, you 
know, having the--being able to get the children up and that 
sort of thing. And so we created a--what we thought was a very 
good program of also wanting to incorporate some sort of 
learning because we know that learning needs to go on during 
the summer as well, not just during the school year. And so we 
developed a program. We got some of the neighborhood residents 
in different parts of the neighborhood to donate their front 
porches and their lawns and we took out breakfast and books, 
reading books to children while they ate their breakfast. And 
we served 162 children.
    During the last week of that program--it was a 6-week 
program--we were paid a visit by some officials who informed us 
we can't do that. And so what we had to do was, you know, then 
stop that program. So the balance of that week those children 
didn't get their breakfasts or that--they still were able to 
get the reading because we still went out, but we couldn't take 
the food out to them any more because of the regulations that 
said they had to come into the school building and the workers 
had to place it in their hands. And, you know, everything we 
were already doing, but doing it in a more flexible way.
    And those are types of things, when we become innovative in 
trying to touch those children and give them that food during 
the summer months, which we feel is just as important, like I 
said, during the school year. It's the flexibility that we're 
missing in order to better serve the children in our district.
    Senator Kohl. Thank you. Yes.
STATEMENT OF PEGGY WEST, OSHKOSH SCHOOL DISTRICT
    Ms. West. I'm Peggy West, and I'm from the Oshkosh School 
District and I just want to make a comment and thank you for 
your efforts here.
    We have three breakfast programs in Oshkosh, one started 
all of three consecutive years now. Two out of the three are in 
serious jeopardy of--we're basically going to lose them because 
we can't get the kids there to participate, so the program 
loses a tremendous amount of money.
    In order to keep them, I'm seriously thinking about trying 
to work that into the school day and offering all kids a free 
breakfast. Then we don't have to worry about the free and 
reduced and the full-paying kids. And if we could do that, we 
might get some kids to participate.
    There's a lot of reasons why we just--we probably put the 
program out there and then the kids just don't come for 
whatever reason. They're responsible a lot of times to just get 
themselves to school. If we can get them there, once we get 
them there, then we can feed them, I think we're going to be on 
the right track. Thank you.
STATEMENT OF CATHY HUNTOWSKI, BROWN COUNTY FOOD AND 
            HUNGER NETWORK
    Senator Kohl. Thank you. Yes.
    Ms. Huntowski. Yes, my name is Cathy Huntowski and I'm 
representing the Brown County Food and Hunger Network. And I'd 
like to thank--take the opportunity to thank you and Under 
Secretary Watkins for coming to Green Bay in your own ways and 
listening to our concerns surrounding hunger and food security.
    The Brown County Food and Hunger Network has been working 
to eliminate hunger and address issues related to the food 
security since 1983. Our members represent local pantries, 
emergency food providers, faith community members, government, 
social service agencies and private citizens. In recent years 
we've sponsored a wide range of food-security related projects 
and used the results of UW Extension Food Security Research to 
target our efforts. The Summer Breakfast Program was one that 
our organization piloted with the help of Extension, Schreiber 
Foods and other organizations. Extension has provided a great 
deal of education, leadership and guidance in focusing our 
efforts and understanding the broad range of issues related to 
creating a food secure community.
    There are many faces to hunger, and certainly children and 
families forced to choose between food and shelter or heat 
deserve our attention. But in a moving economic climate, there 
certainly should be resources to feed all families in this 
nation. What we need to create is a sensible safety net that 
insures all families the basic resources to maintain healthy 
and productive lives. They are working and they're working 
full-time, and full-time work requires childcare providers that 
offer a safe environment and healthy nutritionally sound meals.
    Working full-time requires reliable safe transportation to 
and from work sites, childcare, food and social service 
resources.
    Working requires access to safe, affordable food and time 
management and food preparation skills to insure healthy 
nutritious meals.
    Working full-time requires access to affordable health care 
for all family members and requires education and training 
opportunities so that advancement into higher pay is possible.
    Working requires access to financial education to manage 
resource and appropriate financial services needed to be 
available to those families.
    Working requires access to a wide range of safe, affordable 
housing and the opportunity to own a home.
    Working requires social and family networks that provide 
support and encouragement, and it requires a wage structure 
that can support all those things and more that families and 
individuals need to survive and thrive. That should be our 
goal, to provide appropriate assistance that will allow all our 
citizens to survive and thrive.
    Thank you for your time and attention to these vital issues 
and be assured that our organization stands ready to support 
any and all efforts on your behalf to make the vision of a food 
secure society a reality.
    Senator Kohl. Thank you. Yes.
STATEMENT OF PAUL VANRYZEN, UNIVERSITY OF WISCONSIN 
            EXTENSION
    Mr. VanRyzen. I'd like to thank you all for coming and I'd 
like to introduce myself and offer a different solution to 
addressing the issue of food security. My name is Paul 
VanRyzen. I am with UW Extension.
    I'm the urban gardening coordinator for the county and the 
urban counties in northeastern Wisconsin. And through the work 
of the nutrition program here in Brown County with Extension, 
we've developed some community gardens, and from research that 
I have seen, a typical community garden plot of about 500 
square feet will provide about $500 worth of fruits and 
vegetables for a family in one growing season, so that's one 
great way a family can actively take part in providing for the 
family. Even if they are busy, even if they have to work long 
hours, they can go home and do some gardening at home with 
their kids in one of our community gardens.
    So I'd like to encourage you all to just keep in mind that 
there are some other solutions instead of just giving people--
or in addition, I should say, to just giving people, you know, 
opportunities for food through the school program, for example, 
that they can also provide food for themselves with the garden 
program.
    And I would like to mention, too, that we're going to be 
starting a youth garden right outside the doors, so as you're 
walking out, take a look toward the park, we're going to have a 
youth garden there. And that will provide gardening instruction 
for kids and also families in the neighborhood so they can 
learn how to grow their own vegetables. Thank you.
STATEMENT OF JOHN PINKART, NUTRITION COORDINATOR, 
            OCONTO AND MARINETTE COUNTIES
    Senator Kohl. Yes, sir.
    Mr. Pinkart. My name's John Pinkart, and I am Karen's 
counterpart in Oconto and Marinette Counties, and we too 
conducted a food security survey on a smaller scale, but we 
found in our survey of 316 Food Stamp eligible program 
participants, that 62 percent of our respondents said yes to 
our survey question which asked whether they ran out of food or 
money to buy food for themselves or for their families at 
sometime during any given month of the year. And so I believe 
that the potential for food insecurity exists in our rural 
areas as well as our urban areas of northeastern Wisconsin.
STATEMENT OF YVONNE ROULHAC HORTON, COOPERATIVE 
            EXTENSION, UNIVERSITY OF WISCONSIN 
            EXTENSION
    Senator Kohl. Thank you, sir. Yes, ma'am.
    Ms. Horton. Yvonne Roulhac Horton, Cooperative Extension, 
University of Wisconsin Extension.
    You've had an opportunity to hear from a number of our 
staff members that are passionate about this issue, but I also 
wanted to give a perspective statewide of how Co-op expansion 
has responded and has continued to respond to some of the food 
security issues.
    You especially learned the coalition-building that Karen 
has done; Nancy mentioned that as well as Brett, and the kinds 
of things that we're doing, the community gardening issue; the 
applied research, that's one of the activities in terms of the 
food and security research that has been done. This is 
something that can be replicated throughout the state; in 
Oconto County as John mentioned, it has been done.
    Community education. That's one issue that probably we have 
not spoken enough about. That is how we are working with low-
income families to help them make choices about what food 
costs, nutritious foods and helping them to collaborate with 
other professionals so they can stretch their food dollars and 
working with volunteers in that capacity.
    In shaping public policy, we're working with families and 
policy makers by offering research-based family impact seminars 
in counties throughout the State.
    So as we look at solutions, please consider Extension as a 
resource, and we look forward to continuing our working 
relationship.
    Senator Kohl. Thank you. Anybody else want to offer any 
comments or thoughts?
    Well, it's been a very good panel here today. I think we've 
all learned quite a bit about the problems of food and 
nutrition and hunger, how they affect our society, and all the 
work that yet needs to be done to be sure that people who are 
hungry are taken care of and that young people, in particular, 
who grow up without sufficient food and nutrition receive our 
attention.
    I think we'll all redouble our efforts. I know that we 
will, I will, my staff will. And I appreciate very much the 
comments of all of those who are on the panel today. I think 
that they have added considerably to our understanding of the 
problem and to our determination to do something about it.

                         CONCLUSION OF HEARING

    So we thank you very much for coming, and we thank you very 
much for coming. And we'll see you soon. Thank you.
    [Whereupon, at 1:40 p.m., Thursday, March 16, the hearing 
was concluded, and the subcommittee was recessed to reconvene 
subject to the call of the Chair.]

                                   - 
</pre></body></html>
